«■»

a

No.

IN THE SUPREME COURT OF THE
UNITED STATES

Appeals Court No. 2019-P-1133

CAMILLE T. MATA,
Petitioner,
v.
MASSACHUSETTS COMMISSION AGAINST
DISCRIMINATION,
Respondent.

On Petition for a Writ of Certiorari to the
Appeals Court of the Commonwealth of Massachusetts

APPENDIX

Camille Tuason Mata,
184 Plumtree Road
Sunderland, MA. 01375
E-mail: camille.mata69@gmail.com
Mobile: (617) 515-1642
PRO SE
(A

DATED: December 31, 2020

App. A001
NOTICE: Summary decisions issued by the Appeals Court pursuant to its rule 1:28, as amended
by 73 Mass. App. Ct. 1001 (2009), are primarily directed to the parties and, therefore, may
not fully address the facts of the case or the panel's decisional rationale.
Moreover,
Hsuch decisions are not circulated to the entire court and, therefore, represent only the
views of the panel that decided the case. A summary decision pursuant to rule 1:28 issued
after February 25, 2008, may be cited for its persuasive value but, because of the
^limitations noted above, not as binding precedent. See Chace v. Curran, 71 Mass. App. Ct.
"258, 260 n.4 (2008).

COMMONWEALTH OF MASSACHUSETTS
APPEALS COURT
19-P-1133
CAMILLE T. MATA
vs .
MASSACHUSETTS COMMISSION AGAINST DISCRIMINATION.
MEMORANDUM AND ORDER PURSUANT TO RULE 1:28
Camille T. Mata, the plaintiff, filed a complaint in
September 2016 with the Massachusetts Commission Against
Discrimination (MCAD) after she was denied admission to a
regional planning doctoral program at the University of
After MCAD found a lack of

Massachusetts at Amherst (school).1

probable cause to support her complaint, she challenged that
disposition in the Superior Court.

She now appeals from the

judgment dismissing her case for a lack of subject matter
jurisdiction under Mass. R. Civ. P. 12 (b)

(1), 365 Mass. 754

(1974), and a failure to state a claim upon which relief can be
granted under Mass. R. Civ. P. 12 (b)

(6), 365 Mass. 754 (1974).

While Mata presents a host of claims on appeal related to the
■Vh

i

In her complaint, Mata alleges that the school's rejection was
based on her race and gender.

App. A002

so-called "legal errors" committed by the judge, the appeal
presents a single legal issue:

whether Mata had the right to

seek judicial review in the Superior Court.

We conclude that

she has no such right and affirm.
Background.

Following Mata's submission of her complaint

to the MCAD, an MCAD commissioner investigated the matter and
dismissed it for a lack of probable cause.

Mata, as permitted,

requested a preliminary hearing in accordance with G. L.
c. 151B, § 5.

Following that hearing, MCAD affirmed the finding

of the commissioner.

MCAD's letter to Mata notifying her of

that decision stated that the decision "represents a final
action by the Commission and no further action regarding this
complaint will be considered at [MCAD].

This final action of

the Commission is not subject to Judicial Review [under] G. L.
c. 30A."

Despite that notice, Mata nevertheless filed the

underlying complaint, seeking judicial review of MCAD's
disposition.

MCAD moved to dismiss and the judge allowed the

motion, concluding that a determination of no probable cause is
not a final ruling of the MCAD and thus is not subject to appeal
under G. L. c. 30A.
Discussion.

We review Mata's claim de novo.

See 311 W.

Broadway LLC v. Zoning Bd. of Appeal of Boston, 90 Mass. App.
Ct. 68, 73 (2016).

The sole legal question presented in this

appeal has been answered and is controlled by Grandoit v.

2

App. A003

Massachusetts Comm'n Against Discrimination, 95 Mass. App. Ct.
603 (2019).2

In Grandoit, the plaintiff's five MCAD complaints

were dismissed for a lack of probable cause after a preliminary
hearing.

Id. at 604.

As here, the plaintiff attempted to

challenge that disposition in the Superior Court.

Id.

The

matter was appealed to this court and we concluded that the
Superior Court lacks jurisdiction under the Administrative
Procedure Act, see G. L. c. 30A, and the certiorari statute, see
G. L. c. 249, § 4, to review MCAD's determinations of no
probable cause.

Grandoit, supra.

We determined that similarly

situated plaintiffs have an alternate remedy available under
G. L. c. 151B, § 9, and as a matter of law cannot prove they
"suffered a substantial injury or injustice from the
commission's decision not to institute formal proceedings."
Grandoit, supra at 608.

MCAD is not required to prosecute "each

one of the many complaints that it receives."

Id.

We reach the

same result here.
Judgment affirmed.
By the Court (Sullivan,
Desmond & Hand, JJ.3),

Clerk
Entered:

May 20, 2020.

2 Mata does not address Grandoit in her appeal and we see no
reason to alter its holding.
3 The panelists are listed in order of seniority.
3

App. B004.
DOCKET NUMBER

CLERK'S NOTICE
1878CV00079

Trial Court of Massachusetts
The Superior Court

CASE NAME:

Camille T Mata vs. Massachusetts Commission Against
Discrimination

Susan K. Emond, Clerk of Courts

COURT NAME & ADDRESS

TO:

Camille T Mata
184 Plumtree Road
Sunderland, MA 01375

Franklin Countv Superior Court
43 Hope Street
Greenfield, MA 01301

You are hereby notified that on 01/25/2019 the following entry was made on the above
referenced, docket:_.
Endorsement on Motion to dismiss all counts (#12.0): See Order ALLOWED

/

DATE ISSUED

ASSOCIATE JUSTICE/ ASSISTANT CLERK

01/28/2019
Date/Time Printed: 01-28-2019 14:17:55

SESSION PHONE#

Hon. Mark D Mason
SCV016_X1\ 08/2014

App. B005

Camille T. Mata v. Massachusetts Commission Against Discrimination, 1828CV0079
Before me is the Defendant, the Massachusetts Commission Against Discrimination’s (the “MCAD”), motion to
dismiss for lack of subject matter jurisdiction and for failure to state a claim upon which relief may be granted. For
the reasons set forth below, the MCAD’s motion is ALLOWED.
On September 9,2016, Plaintiff, Camille T. Mata (“Ms. Mata”), filed a gender/race discrimination complaint against
the University of Massachusetts, Amherst with the MCAD citing violations of G.L. c. 151C. On December 6,2017,
a MCAD investigator recommended a finding of lack of probable cause against the University of Massachusetts.
Ms. Mata filed an appeal of the investigator’s finding, and, on September 28,2018, the Investigating Commissioner
affirmed the finding of lack of probable cause. On November 6,2018, Ms. Mata initiated the present action
seeking judicial review of the lack of probable cause disposition. The MCAD has filed its motion seeking dismissal
for lack of subject matter jurisdiction as well as failure to state a claim upon which relief may be granted.
“Under commission regulations, a hearing officer or hearing commissioner enters a case only if, and after, the
investigating commissioner finds probable cause to credit the allegations in the complaint and certifies the case to a
' -public KeafmgrSe^804 Code MassrRegs.-§ l7l5(7)(b) (2008)T804-Coxle MassrRegs. ri-20(3) (20G4).J’ eo««orv;
Massachusetts Commn. Against Discrimination, 85 Mass.App.Ct. 1107 (unpublished) citing Temple Emanuel of
Newton v. Massachusetts Commn. Against Discrimination, 463 Mass. 472,474—475 n. 3 (2012). Preliminary
hearings on findings of lack of probable cause, such as at issue herein are “not subject to the requirements of G.L. c.
30A.” 804 Code Mass. Regs. 1.15(7)(d).
The Appeals Court held in Zannerini v. Massachusetts Commn. Against Discrimination, 74 Mass.App.Ct. 1119
(unpublished), “An investigating commissioner’s decision to sustain a lack of probable cause finding at the
preliminary hearing does not constitute a final decision rendered by the full commission in an adjudicatory
proceeding. See 804 Code Mass. Regs. § 1.15(7)(d). Only the investigating commissioner hears the complainant’s
evidence presented at the preliminary hearing and the investigating commissioner’s decision cannot be appealed to
the full commission. See 804 Code Mass. Regs. § 1.15(7)(d). Since an investigating commissioner’s decision to
affirm a lack of probable cause finding after a preliminary hearing does not meet the requirements of c. 30A, § 14
(because it is not a final decision issued by the full commission), no judicial review is available pursuant to § 6 of c.
15 IB.” Id.
As in Connor and Zannerini, since the investigating commissioner found no probable cause, the matter could not
proceed to the full commission, and, subsequently, to judicial review. Judicial review is available only to a person
aggrieved by a final order of the full MCAD. See G.L. c. 151B, § 6; 804 Code Mass. Regs. § 1.24 (1999).
Regardless, a lack of probable cause finding does not bar a petitioner from initiating an independent complaint m
Superior Court pursuant to c. 151B, § 9. See G.L. c. 151B, § 9.
The case law cited above applies with equal force to actions brought pursuant to G.L. c. 151C such as the present
action. See 804 Code Mass. Regs. 1.01 (the regulations of the MCAD “shall apply to [G.L.] c. 151C where not
inconsistent with the provision of [G.L.] 151C”).
For the reasons set forth above, the MCAD’s Motion to Dismiss for Lack of Jurisdiction Over the Subject Matter
and Failure to State a Claim upon Which Relief Can Be Granted is ALLOWED.
January 25,2019

Hon. Mark D Masbn_
Justice of the Superior Court

A TRUE COPY ATTEST
1C

Clerk of Courts

-

12/20/2020

Gmail - FAR-27548 - Notice: FAR denied

App. C007

(Ml Gmail

Camille Tuason Mata <camille.mata69@gmail.com>

FAR-27548 - Notice: FAR denied
1 message
SJCCommClerk@sjc.state.ma.us <SJCCommClerk@sjc.state.ma.us>
Reply-To: SJCCommClerk@sjc.state.ma.us
To: camille.mata69@gmail.com

Mon, Jul 27, 2020 at 4:00 PM

Supreme Judicial Court for the Commonwealth of Massachusetts
RE: Docket No. FAR-27548
CAMILLE T. MATA
vs.
MASSACHUSETTS COMMISSION AGAINST DISCRIMINATION
Franklin Superior Court No. 1878CV00079
A.C. No. 2019-P-1133
NOTICE OF DENIAL OF APPLICATION FOR FURTHER APPELLATE REVIEW
Please take note that on July 27, 2020, the application for further appellate review was denied.
Francis V. Kenneally, Clerk
Dated: July 27, 2020
To: Camille T. Mata
Kristen Dannay, Esquire
Ethan Crawford, Esquire

https://mail. google. com/mail/u/0?ik=c7570e7231 &view=pt&search=all&permthid=thread-f%3A1673401564190463416&simpl=msg-f%3A16734015641...

1/1

12/28/2020

Gmail - FAR-27548 - Notice of Docket Entry

App. D008

[M) Gmail

Camille Tuason Mata <camille.mata69@gmail.com>

FAR-27548 - Notice of Docket Entry
■*'\ message
SJCCommClerk@sjc.state.ma.us <SJCCommClerk@sjc.state.ma.us>
Reply-To: SJCCommClerk@sjc.state.ma.us
To: camille.mata69@gmail.com

Fri, Oct 2, 2020 at 4:00 PM

Supreme Judicial Court for the Commonwealth of Massachusetts
RE: No. FAR-27548
CAMILLE T. MATA
vs.
MASSACHUSETTS COMMISSION AGAINST DISCRIMINATION
NOTICE OF DOCKET ENTRY
Please take note that on October 2, 2020, the following entry was made on the docket of the above-referenced case:
DENIAL of petition to reconsider denial of FAR application.
Francis V. Kenneally, Clerk
Dated: October 2, 2020
To:
Camille T. Mata
Kristen Dannay, Esquire'
Ethan Crawford, Esquire

A

https://mail. google. com/mail/u/0?ik=c7570e7231 &view=pt&search=all&permthid=thread-f%3A1679471598609130301 &simpl=msg-f%3A16794715986...

1/1

App. E009

CommissionAgainstDigcrimination
Camille Tuason Mata
184 Plumtree Road
Sunderland, MA. 01375
Mobile: (617)515-1642
E-mail: camille.mata69@gmail.com

OCT 2 4 2013
i

*——1———o

, Springfield

MCAD Springfield Office
Attn: Attorney Kristen Dannay
436 Dwight Street, Rm. 220
Springfield, MA 01103
Phone: (413) 739-2145
Fax: (413) 784-1056

Certificate of Service

Pursuant to Mass. R. Civ. P 5(a), I hereby certify that a true copy of the preceding document was
served by certified mail upon the Clerk of Court of the Franklin County Superior Court and upon
Attorney Kristen Dannay, Counsel for the Massachusetts Commission Against Discrimination, on
Sunday, October 21,2018.

Sincerely yours,

Camille Tuason Mata, Pro Se

1 '

Additional material
from this filing is
available in the
Clerk's Office.

